                                                       NATIONAL SCIENCE FOUNDATION
                                                        OFFICE OF INSPECTOR GENERAL
                                                          OFFICE OF INVESTIGATIONS

                                                  CLOSEOUT MEMORANDUM


     I   Case Number: 103110064                                                                   Page 1 of 1



              This matter was opened as part of a Program Income review of conference grants. Initial review
              identified that the grantee' provided questionable responses to our initial review and may have
              overpaid a consultant. Based on the inadequate initial response, we sent a follow-up request and
              asked for a more detailed response and questioned the daily rate provided to a consultant.

              The grantee provided a thorough and adequate response. The grantee provided detailed
              explanations of all expenditures related to the conference grant. The grantee also explained that
              the consultant's daily rate actually consisted of direct and indirect cost. Therefore, we
              determined that the consulting fee was allowable.

     ~        Accordingly, this case is closed.




I'
 NSF OIG Form 2 ( 1 1/02)
